Miami INS Report - Table of Contents
Alleged Deception of
Congress: The Congressional Task Force on Immigration
Reform's
Fact-finding Visit to the Miami District of
INS in June, 1995
Table of Contents
Prepared Congressional Testimony of the Inspector General
Executive Summary
Background to the OIG Investigation
The OIG Investigation
The Allegations Concerning Krome
The Allegations Concerning Miami International Airport
The Allegations of Obstruction
OIG Conclusions on Administrative Responsibility
Conclusions and Recommendations Regarding Needed Systemic Reforms
NOTE: The appendices are not included in this hypertext version.